                                   OFFICE OF INSPECTOR GENERAL
                                     OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have mischarged his salary. An NSF
division2requested an audit of the mischarging and negotiated a settlement of $1 1,393.89.

Accordingly this case is closed.
